No. 19-158
In the

Supreme Court of the United States
MARCUS TURNER, SR., et al.,
Petitioners,
v.
ALVA C. HINES, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
District of Columbia Court of A ppeals

BRIEF FOR AMICUS CURIAE
THOMAS MORE SOCIETY IN
SUPPORT OF PETITIONERS
Thomas Olp
Counsel of Record
Martin Whittaker
Joan M. Mannix
Thomas More Society
309 West Washington Street,
Suite 1250
Chicago, IL 60606
(312) 782-1680
tolp@thomasmoresociety.org
Counsel for Amicus Curiae
290948

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF THE AMICUS CURIAE . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY
OF ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Background – The pleadings below seek to
cancel a church’s existing constitution, and
reorganize its leadership and finances, but do
not even make the church a party to the suit  . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
The District of Columbia’s procedures for dealing
with cases involving congregational churches
invites its courts to stumble into matters of
church polity, doctrine and administration
without the churches even being parties, which
the First Amendment positively forbids  . . . . . . . . . . 5
I.

Because courts are required by the Free
Exercise Clause to apply the church
autonomy doctrine to cases implicating
matters of church doctrine, polity, and
administration, rules of pleading and party
joinder should require the plaintiffs in cases
implicating such matters to plead and prove
that the church autonomy doctrine is not
a bar to the relief they seek.  . . . . . . . . . . . . . . . . 5

ii
Table of Contents
Page
II. T he Dist r ict of Colu mbia Cou r t of
Appeals’ unique procedures for litigating
congregational church disputes conflicts
w ith procedures employed by other
courts across the country and violates the
requirements of due process . . . . . . . . . . . . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Ad Hoc Committee of Parishioners v. Reiss,
223 Ariz. 505, 224 P.3d 1002 (Ariz. App. 2010) . . . . 12
Askew v. Trustees of Gen’l Assembly of Church of
the Lord,
684 F.3d 413 (3d Cir. 2012) . . . . . . . . . . . . . . . . . . . . . 12
Bank of America v.
Jericho Baptist Church Ministries, Inc.,
No. PX 15-0295, 2016 WL 4721257
(D. Md. Sept. 9, 2016)  . . . . . . . . . . . . . . . . . . . . . . . . . 11
Bowen v. Green,
275 S.C. 431, 272 S.E.2d 433 (S.C. 1980)  . . . . . . . . . 14
Bruss v. Przbylo,
385 Ill.App.3d 399, 895 N.E.2d 1102
(2d Dist. 2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Dews v. Peterson,
283 Ala. 650, 219 So.2d 903 (Ala. 1969)  . . . . . . . . . . 14
Hansberry v. Lee,
311 U.S.32 (1940) . . . . . . . . . . . . . . . . . . . . . . . . . .  13, 14
Hooker v. Edes Home,
579 A.2d 608 (D.C.1990) . . . . . . . . . . . . . . . . . . . . . 9, 10

iv
Cited Authorities
Page
Hosanna-Tabor Evangelical Lutheran Church
and School v. EEOC,
575 U.S. 171 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . 6, 7, 8
Mt. Jezreel Christians Without a Home v. Bd. Of
Trustees of Mt. Jezreel Baptist Church, and
Trammell,
582 A.2d 237 (D.C. 1990)  . . . . . . . . . . . . . . . . 8-9, 10, 11
Patterson v. Shelton,
No. No. 2396 C.D.2011, 2013 WL 3961047
(Pa. Commw. Ct., March 6, 2013) . . . . . . . . . . . . . . . 11
Pfeil v. St. Matthew’s Evangelical Lutheran
Church,
877 N.W.2d 528 (Minn. 2016) . . . . . . . . . . . . . . . . . . 6, 8
Presbyterian Church in U.S. v.
Hull Memorial Church,
393 U.S. 440 (1969) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Puri v. Khalsa,
844 F.3d 1152 (9th Cir. 2017) . . . . . . . . . . . . . . . . . . . 12
Puri v. Khalsa,
674 Fed. Appx. 679 (9th Cir. 2017) . . . . . . . . . . . . . . . 12
Ross v. Bernhard,
396 U.S. 531 (1970)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

v
Cited Authorities
Page
Russell v. United Missionary Baptist Church,
92 Ohio App. 3d 736, 637 N.E.2d 82 (1994)  . . . . . . . 12
Serbian Eastern Orthodox Diocese v.
Milivojevich,
426 U.S. 696 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7
YMCA v. Covington,
484 A.2d 589 (D.C.1984) . . . . . . . . . . . . . . . . . . . . . 9, 10
STATUTES AND OTHER AUTHORITIES
Fed. R. Civ. Proc. 23(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Fed. R. Civ. Proc. 23.1 . . . . . . . . . . . . . . . . . . . . . . . . . 3, 13
Fed. R. Civ. Proc. 23.1(a) . . . . . . . . . . . . . . . . . . . . . . . . . 13
Dist. Columbia Sup. Ct. R. Civ. Proc. 23(b)  . . . . . . . . . 13
Restatement (Second) of Trusts § 391 (1959) . . . . 9, 10-11

1
INTEREST OF THE AMICUS CURIAE1
The Thomas More Society (“the Society”) is a nonprofit organization devoted to the defense and advocacy
of First Amendment rights, including freedom of speech
and religious freedom. Incorporated as a 501(c)(3) notfor-profit corporation in Illinois and based in Chicago,
Illinois and Omaha, Nebraska, it accomplishes its
organizational mission through litigation, education, and
related activities. It provides pro bono legal services in
many different types of cases, including protecting the
First Amendment religious liberty rights of corporations,
organizations, and individuals.
INTRODUCTION AND SUMMARY
OF ARGUMENT
In this case, the District of Columbia Court of
Appeals applied a unique procedure of pleading and
joinder that conflicts with the normal procedures of state
supreme courts across the country, and that threatens to
reorganize the constitution, leadership, and finances of a
local church without that church even being party to the
suit. The First and Fourteenth Amendments forbid this.
1. Petitioners and Respondents consented to the filing of an
amicus brief on behalf of The Thomas More Society (“the Society”)
in support of the Petitioners. Pursuant to S. Ct. Rule 37.2, the
Society states that all parties’ counsel received timely notice of the
intent to file this brief. Pursuant to S. Ct. Rule 37.6, the Society
further states that no counsel for a party wrote this brief in whole
or in part, and no counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief. No
person or entity, other than the Society or its counsel, has made
a monetary contribution to this brief’s preparation or submission.

2
The First Amendment’s free exercise clause bars,
pursuant to church autonomy doctrine, adjudication of
matters touching church doctrine, polity, and internal
administration. In analyzing whether church autonomy is
implicated by the claims in a case, and in deciding whether
neutral principles of law may nevertheless resolve the
claims, courts must look at both the claims themselves and
the scope and nature of the relief sought. Amicus agrees
with petitioners that the District of Columbia Court of
Appeals has adopted a constitutionally infirm approach
to determining whether a case involves the internal
governance of a congregational church. The failure to
require, at a minimum, that the church be a party or
that plaintiffs be required to exhaust internal church
procedures before suing, forecloses a proper analysis
of whether litigation impermissibly invades church
autonomy. That procedure also denies due process to the
churches involved by not requiring that they be parties
and conflicts with practices of other courts, state and
federal, across the country in dealing with these issues
of federal constitutional law.
The procedure in the District of Columbia by which
purported members of a congregational church plead and
prove their standing to seek relief affecting their church
is unique among American jurisdictions. That procedure
allows disaffected members of a congregation to sue to
reconstitute the fundamental polity of the church, as
the plaintiffs here have done, depose existing governing
agents of the church, all without making the church a
party to the suit.
Other jurisdictions, however, require at least that the
affected church be made a party at the pleading stage

3
of the case and, depending on the nature of the dispute,
many also require satisfaction of the pleading elements of
Federal Rule of Civil Procedure 23.1 (“Rule 23.1”). Those
include pleading “any effort by the plaintiff to obtain the
desired action from [internal church] … authority and,
if necessary, from the [church congregation] members”
themselves. Fed. R. Civ. Proc. 23(b).
Such pleading requirements have the salutary
effect of clarifying at the outset whether a court will
be required to decide questions of church doctrine,
organization, administration or polity - questions it may
not permissibly decide. Furthermore, because the church
autonomy doctrine is a positive constitutional bar to the
civil adjudication of certain matters, demanding that the
contours of the issue at least be described at the outset of
the case will help prevent courts from stumbling further
into forbidden territory than they ought. Requiring that
the church with a clear stake in the matter, as well as
satisfaction of the requirements Rule 23.1, will prevent
delayed resolution of the church autonomy issues, and
avoid prolonging litigation that may constitutionally
impermissibly and needlessly hobble churches.
This Court should grant the petition for writ of
certiorari to make clear that in all suits in which the
rights or liabilities of a church are at stake the First
Amendment requires that the church itself be made a
party to the suit and that, at a minimum, the pleadings
satisfy the requirements set forth in Rule 23.1 whenever
relief is sought derivatively for a church.

4
Background – The pleadings below seek to cancel
a church’s existing constitution, and reorganize its
leadership and finances, but do not even make the
church a party to the suit.
In this case there are eighteen plaintiffs. Each
describes himself or herself as “a bona fide member in
good standing of Beulah Baptist Church and a beneficiary
of the property the Church holds in trust for its members.”
Pet. App., pp. 74 – 77, ¶¶6 – 23. The Beulah Baptist Church,
however, is not a named party but is described merely as
part of the general “Introduction” to the parties’ dispute.
Id., p. 72, ¶1.
Each of the eighteen plaintiffs seeks eight enumerated
forms of relief, and none of those purport to inure to the
benefit of the plaintiffs themselves (except they ask for
“reasonable costs and attorneys’ fees”). Id., Pet. App. at 107
– 108. Rather, the relief requested seeks to fundamentally
alter the internal governance of the Church by asking for
cancellation of the existing Church constitution and the
re-institution of a predecessor constitution, and stripping
authority from two governing personnel of the Church
(the Pastor, defendant Turner, and an allied Elder of the
Church, defendant Moore. Id., ¶¶ (2), (4)).
Although the plaintiffs ask for an award of money
from Turner and Moore (besides their litigation costs
and attorneys’ fees), they state that money is for “for the
benefit of the Church,” not for plaintiffs themselves. Ibid.,
¶(5) and (6).
All the relief that the plaintiffs seek, save their costs
and attorneys’ fees, is thus derivative relief on behalf of
Beulah Church itself.

5
ARGUMENT
The District of Columbia’s procedures for dealing
with cases involving congregational churches invites
its courts to stumble into matters of church polity,
doctrine and administration without the churches
even being parties, which the First Amendment
positively forbids.
I.

Because courts are required by the Free Exercise
Clause to apply the church autonomy doctrine
to cases implicating matters of church doctrine,
polity, and administration, rules of pleading and
party joinder should require the plaintiffs in cases
implicating such matters to plead and prove that
the church autonomy doctrine is not a bar to the
relief they seek.
[W]here resolution of the disputes cannot be
made without extensive inquiry by civil courts
into religious law and polity, the First and
Fourteenth Amendments mandate that civil
courts shall not disturb the decisions of the
highest ecclesiastical tribunal within a church
of hierarchical polity … Even when rival church
factions seek resolution of a church property
dispute in the civil courts there is substantial
danger that the State will become entangled in
essentially religious controversies or intervene
on behalf of groups espousing particular
doctrinal beliefs. Because of this danger, ‘the
First Amendment severely circumscribes the
role that civil courts may play in resolving
church property disputes ... If civil courts
undertake to resolve such controversies in

6
order to adjudicate the property dispute, the
hazards are ever present of inhibiting the
free development of religious doctrine and
of implicating secular interests in matters of
purely ecclesiastical concern. . . . (T)he (First)
Amendment therefore commands civil courts
to decide church property disputes without
resolving underly ing controversies over
religious doctrine.’ … This principle applies
with equal force to church disputes over church
polity and church administration.”
Serbian Eastern Orthodox Diocese v. Milivojevich, 426
U.S. 696, 709-710 (1976), quoting Presbyterian Church
in U.S. v. Hull Memorial Church, 393 U.S. 440, 449
(1969)(emphasis supplied); accord Pfeil v. St. Matthew’s
Evangelical Lutheran Church, 877 N.W.2d 528, 533 (Minn.
2016) (the first lesson of the U.S. Supreme Court’s church
autonomy decisions is that “a court cannot overturn the
decisions of governing ecclesiastical bodies with respect
to purely ecclesiastical concerns, such as internal church
governance or church discipline”).
The mandatory tenor of these holdings belies any
plausible claim that civil courts have discretion about
wading into matters of church polity, administration, or
doctrine. But in this case the District of Columbia Court
of Appeals concluded that the church autonomy issues
are an “affirmative defense” to the claims that plaintiffs
state here. Pet. App., p. 12, n. 15, citing Hosanna-Tabor
Evangelical Lutheran Church and School v. EEOC, 575
U.S. 171, 195, n. 4 (2012). That necessarily implies that the
church autonomy doctrine is only implicated where raised
by a defendant, and can be waived by a defendant who is
careless in his pleading or sees advantage in avoiding it.

7
But, to honor the constitutional “command[]” that
civil courts not make decisions touching church polity,
administration, or doctrine [Milivojevich, supra, in loc.
cit.], rules of pleading and procedure must guarantee the
doctrine is fronted to the court’s attention and addressed
by the court whenever the rights and obligations of
a church would be affected by the relief sought in a
complaint. Furthermore, because the peculiar procedures
used in this case threaten the prospect that a judgment
will bind persons who have not been made parties, due
process rights are thus threatened.
Contrary to the holding of the Court of Appeals
below, this Court held in Hosanna-Tabor only that the
“ministerial exception” defense–a refined derivative of
the church autonomy doctrine that depends entirely on a
defendant church’s categorization of its employees— is an
affirmative defense, not that the broader church autonomy
doctrine itself is, and it carefully limited the holdings to
the facts of that case. Hosanna-Tabor, 575 U.S. at 196
(“The case before us is an employment discrimination suit
brought on behalf of a minister, challenging her church’s
decision to fire her. Today we hold only that the ministerial
exception bars such a suit. We express no view on whether
the exception bars other types of suits, including actions
by employees alleging breach of contract or tortious
conduct by their religious employers. There will be time
enough to address the applicability of the exception to
other circumstances if and when they arise”).
Attentive to that carefully circumscribed holding in
Hosanna-Tabor, and contrary to the District of Columbia
Court of Appeals here below, the Minnesota Supreme
Court has rightly observed that it still has authority to
decide how the doctrine may be procedurally invoked

8
in state tort actions. Pfeil, supra, 877 N.W.2d at 535.
(“The unique circumstances surrounding the decision
in Hosanna–Tabor, particularly the fact that the Court
was confronted with a [federal] statutory cause of action,
provide us with some latitude to decide how the doctrine
will be applied in Minnesota courts … We leave for another
time the question of whether the doctrine is best viewed as
an affirmative defense on the merits” in Minnesota cases).
Thus, the Court of Appeals’ determination that
Hosanna-Tabor requires that the church autonomy
doctrine be treated as an affirmative defense to the
state-law claims like those pleaded here was not only
incorrect (see Pfeil, supra), it was needless because the
defense has obviously been raised and litigated here. But
it is also especially dangerous in the peculiar and flawed
procedure that the District of Columbia courts use in these
congregational church cases. If petitioners had failed to
invoke the church autonomy doctrine below, its availability
to Beulah Church might have forever been lost, without
the church even being made a party.
II. The District of Columbia Court of Appeals’ unique
procedures for litigating congregational church
disputes conflicts with procedures employed by
other courts across the country and violates the
requirements of due process.
The District of Columbia first adopted its unique
procedure governing internecine congregational church
disputes—the procedure by which disputes can proceed
all the way to judgment without a church even being a
party—in Mt. Jezreel Christians Without a Home vs. Bd.
Of Trustees of Mt. Jezreel Baptist Church and Trammell,

9
582 A.2d 237 (D.C. 1990). In that case, a faction of the
congregants of the Mount Jezreel Baptist Church became
disaffected with the existing governing trustees and
pastor and formed a rump congregation. They sued both
the board and the pastor, with other members of the Mount
Jezreel congregation later joining them as plaintiffs as the
case proceeded. The circuit court found, however, that all
of these disaffected congregant plaintiffs had voluntarily
left the congregation and it dismissed the case for lack of
plaintiff standing. 582 A.2d at 238-239.
The District of Columbia Court of Appeals reversed.
The Court of Appeals held it was “clearly erroneous” that
all of the plaintiffs had left the congregation (some of the
newcomer plaintiffs were still congregants), and it then
invoked the rule that now governs pleading procedure for
all such intra-congregational suits in the District:
Because the church was incorporated for the
purpose of religious worship, and because the
property was held in trust for that purpose,
the members of the congregation are indeed
the beneficiaries of the trust. As such, they
have standing to [directly] sue the trustees
in the event that the trust property is used
or disposed of in a manner contrary to the
stated purposes of the trust. See Hooker v.
Edes Home, 579 A.2d 608, 611–12 (D.C.1990),
citing YMCA v. Covington, 484 A.2d 589, 591
(D.C.1984); see also Restatement (Second) of
Trusts § 391 (1959) (‘A suit can be maintained
for the enforcement of a charitable trust by the
Attorney General or other public officer, or by
a co-trustee, or by a person who has a special

10
interest in the enforcement of the charitable
trust’).”
582 A.2d at 239.
All that a disaffected member of a congregational
church in the District must plead to be given standing to
sue existing church leadership, even without joining the
church itself, is that she or he is a bona fide member of
the congregation. That is all of the eighteen plaintiffs in
this case have done.
A church, however, is not a correct analog to a secular
charitable trust. Unlike the settlors of most secular trusts,
for instance, whose settlors and beneficiaries are distinct,
many of the providers of donated church property are
the congregants themselves. Church trustees, pastors
and ministers are frequently, perhaps always, required
to be congregation members, too (see, for instance, the
Constitution of Mount Beulah, Pet. App., pp. 111 – 135),
unlike secular trust beneficiaries, who cannot be trustees.
Unlike the situation with secular trusts, there are no clear
lines of demarcation among church congregation members
about the roles they play vis a vis church property and
polity. All have a say about governance and administration,
and all have a beneficial interest in property and practice.
Furthermore, the authorities which the Mt. Jezreel
Christians decision cites—Hooker v. Edes Home and
YMCA v. Covington—dealt with such secular charitable
trusts, and did not involve churches. Moreover, the
Restatement, which was also cited by the Court of Appeals
in Mt. Jezreel Christians, itself prohibits donors of trust
property from suing on behalf the trust. Restatement

11
(Second) of Trusts, §391, comments e. and f. Donors of
property to the trust can only be adverse to the trust,
and if they sue a trustee, someone must be joined as a
necessary party (the Attorney General in the case of
secular charitable trusts) to protect the interests of absent
beneficiaries. Restatement (Second) of Trusts, loc. cit.
For these reasons, a church is a poor analog to a
secular trust, and that is likely why Mt. Jezreel Christians
is not followed anywhere outside the District of Columbia. 2
Consequently, under the Mt. Jezreel Christians
procedure, courts do not adequately consider the longterm interests of the church itself, and the interests of
absent, non-litigious congregants. The suits are likely to
result, after protracted, expensive litigation, in forced
reconfiguration of church governance by civil courts (a
matter that the First Amendment forbids), or the church’s
eventual demise. Or, worst of all, both. See, e.g., Bank of
America v. Jericho Baptist Church Ministries, Inc., No.
PX 15-0295, 2016 WL 4721257 (D. Md., Sept. 9, 2016)
(“Since 2010, the parties in this action, along with several
individual Church members, have participated in no fewer
than six separate lawsuits in federal and state court
[in the District of Columbia and Maryland] attempting
to determine fully and finally which entity rightfully
governs the Church,” resulting in the loss of use of $7.7
million of church funds by any faction during pendency
of interpleader action).
2. West’s InstaCite service reveals that the only decision
outside the District of Columbia that has cited Mt. Jezreel
Christians is an unpublished, non-precedential decision from
Pennsylvania, Patterson v. Shelton, No. No. 2396 C.D.2011, 2013
WL 3961047 (Pa. Commw. Ct., March 6, 2013).

12
Forbidden outcomes like that are avoidable, and can be
avoided if appropriate pleading requirements are imposed
at the outset of these cases.
Among many of the reported decisions outside of
the District of Columbia that have applied the church
autonomy doctrine to congregational church disputes at
an early stage of litigation, resulting in the dismissal of
all or a portion of the claims, the plaintiffs were required
to plead in accordance with Rule 23.1, or its equivalent
among the state rules of procedure. See, e.g., Askew v.
Trustees of Gen’l Assembly of Church of the Lord 684 F.3d
413, 417 (3rd Cir. 2012)(affirming district court’s grant of
motion to dismiss derivative claims after short “period of
focused discovery”); Puri v. Khalsa, 844 F.3d 1152 and
674 Fed. Appx. 679, 683 (9th Cir. 2017)(affirming dismissal
of derivative claims against organizations managing the
affairs of religious community because, among other
reasons, plaintiffs were not adequate representatives
of organizations: “the plaintiffs’ requested relief would
leave them in complete control of the organizations
whose interests they purport to represent”); Ad Hoc
Committee of Parishioners v. Reiss, 223 Ariz. 505, 224
P.3d 1002 (Ariz. App. 2010) (affirming dismissal on the
pleadings of derivative claims against incorporated
Catholic parish); Bruss v. Przbylo, 385 Ill.App.3d 399,
895 N.E.2d 1102 (2nd Dist. 2008) (affirming dismissal
on the pleadings of mixture of derivative and direct
claims against congregational church pastor and board of
trustees); Russell v. United Missionary Baptist Church,
92 Ohio App. 3d 736, 637 N.E.2d 82 (1994) (denying
derivative plaintiffs’ request for fees after case mooted
and voluntarily dismissed because they “did not exhaust
their internal remedies, and therefore did not properly
maintain a derivative action”).

13
The District itself has such a rule. District of
Columbia Superior Court Rule of Civil Procedure 23.1,
like its federal exemplar, requires that a plaintiff seeking
relief derivatively for the benefit of an unincorporated
association must, by verified complaint, allege not only
that the plaintiff was a member of the association but also
“state with particularity: (A) any effort by the plaintiff to
obtain the desired action from the directors or comparable
authority and, if necessary, from the … members [of the
congregation]; and (B) the reasons for not obtaining the
action or not making the effort.” Dist. Columbia Superior
Court Rule of Civil Proc. 23.1(b).
The nature of a derivative proceeding itself means that
the organization on whose behalf it is brought is itself is a
necessary party and “without it the case cannot proceed.”
Ross v. Bernhard, 396 U.S. 531, 538 (1970). Furthermore
because it is not only the organization, but also the
members comprising the organization whose rights are
also affected by any judgment, Rule 23.1 requires that
plaintiffs show that they “fairly and adequately represent
the interests of … [those] members who are similarly
situated” but absent from the case. Fed. R. Civ. Proc.
23.1(a). Failure of fair, impartial representation not only
violates the Rule, but denies due process. Hansberry v.
Lee, 311 U.S.32, 42 (1940) (“there has been a failure of
due process … where it cannot be said that the procedure
adopted fairly insures the protection of the interests of
absent parties who are to be bound by it”).
Had Rule 23.1 procedures been applied here, Beulah
Church would be a party and the plaintiffs’ complaint
would include at least some explanation why Beulah
Church’s internal “Church Discipline” procedure–calling
for all disinterested Deacons and Deaconesses to take

14
action to discipline “unchristianlike” misbehavior like
that Turner and Moore are accused of here—does or
does not apply, and has or has not yet been attempted. See
Beulah Church 1997 Constitution, Art. XVI, Appendix
pp. 133 – 134.
Even in jurisdictions where church congregation
members’ claims may be properly brought directly, and
not derivatively, against church trustees or pastors,
if the rights or obligations of the church itself may be
affected, due process requires either that the church
be added as a party or that there be a finding that it is
adequately represented. Hansberry v. Lee, supra; Dews
v. Peterson, 283 Ala. 650, 653, 219 So.2d 903, 905 (Ala.
1969)(“Under the pleading and proof … the trial court, in
the first instance, and this court, on appeal, have power to
declare that the church has no right, title, or interest in the
property ... [But t]o so declare in a suit in which the church
is not a party would offend that fundamental principle of
the common law which requires that a party have his day
in court before judgment be rendered against him”); cf.
Bowen v. Green, 275 S.C. 431, 435, 272 S.E.2d 433, 435
(S.C. 1980) (“It is not for this court to determine who shall
or shall not be members … [or] to dictate procedure for the
church to follow. It is the function of this court, however,
in these circumstances, to assure that the church itself
has spoken”).
The same is true here. Among the relief that plaintiffs
seek is cancellation of the existing church constitution
(Pet. App. at 108), without the church even being party
to suit, and without inquiry of the adequacy of the
plaintiffs to represent its interests and those of the
absent congregation members. The District of Columbia’s

15
procedural practices that allowed that to occur violate
the free exercise and due process clauses of the First and
Fourteenth Amendments.
These constitutional errors should be corrected.
CONCLUSION
For the foregoing reasons, and those set forth in
the petition for writ of certiorari, the petition should be
granted.
Respectfully submitted,
Thomas Olp
Counsel of Record
Martin Whittaker
Joan M. Mannix
Thomas More Society
309 West Washington Street,
Suite 1250
Chicago, IL 60606
(312) 782-1680
tolp@thomasmoresociety.org
Counsel for Amicus Curiae

